<html>
<title> - BUSINESS MEETING</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                            BUSINESS MEETING 

=======================================================================

                                MEETING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

              MEETING HELD IN WASHINGTON, DC, MAY 3, 2007

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html

                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

37-079 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


























                   Committee on House Administration


                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              VERNON J. EHLERS, Michigan
MICHAEL E. CAPUANO, Massachusetts     Ranking Minority Member
CHARLES A. GONZALEZ, Texas           DANIEL E. LUNGREN, California
SUSAN A. DAVIS, California           KEVIN McCARTHY, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
                 Will Plaster, Minority Staff Director


















CONSIDERATION OF H.R. 811 AND CONSIDERATION OF RUSSELL V. BROWN-WAITE; 
     GONZALEZ V. DIAZ-BALART; CURTIS V. FEENEY; AND COX V. McCRERY

                              ----------                              

                                             Thursday, May 3, 2007.
                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:45 a.m., in Room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
presiding.
    Present: Representatives Brady, Lofgren, Capuano, Gonzalez, 
Davis of California, Davis of Alabama, Ehlers, and McCarthy.
    Staff Present: Liz Birnbaum, Staff Director; Charles 
Howell, Chief Counsel; Matt Pinkus, Professional Staff/
Parliamentarian; Janelle Hu, Election Counsel; Kristin McCowan, 
Chief Legislative Clerk; Robert Henline, Staff Assistant; Fred 
Hay, Minority General Counsel; Gineen Beach, Minority Counsel; 
and Bryan T. Dorsey, Minority Professional Staff Member.
    Mr. Brady. I would like to call the committee meeting to 
order.
    Good morning, everyone, Members of the Committee and 
guests.
    I take the chairman's gavel today with a heavy heart. As 
you know the Committee on House Administration lost our leader, 
Chairwoman Juanita Millender-McDonald, on April 22 after her 
too-short tenure in the Chair. I would like to have a brief 
moment of silence to remember the Chairwoman and all she meant 
to this committee and to this Congress. So I would ask for a 
brief moment of silence.
    Thank you all.
    I also would like to welcome today Congressman Artur Davis, 
who was just appointed as the newest member of committee. 
Congressman Davis, I am sure you will find the work of this 
committee and its responsibilities for the operation of the 
House both interesting and as inspiring as we all do. Welcome 
aboard.
    Mr. Davis of Alabama. Thank you, Mr. Chairman.
    Mr. Brady. We are here to talk about marking up H.R. 811. 
We have amendments on our side, and we have given them to the 
gentlemen on the Miniority side. We also understand there are 
nine or 10 amendments that they would like to offer today. We 
just think, in order to be fair, there may be some good 
amendments there, and we have not had a chance or opportunity 
to look at them.
    We think we need time to look at those amendments. We are 
always for making any bill that we have in front of us better. 
So again, to be fair, we would like time to look at those 
amendments. We just can't give them the attention they deserve 
in this short period of time. So I am going to adjourn this 
meeting until next Tuesday.
    With that, I would like to recognize our Ranking Member, 
Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. I share your grief and 
concern about our previous Chair and her family. It was a shock 
to all of us. I have been bothered for months, because I knew 
something was wrong, but she was such a courageous and private 
person she didn't want to share her difficulties with anyone. I 
am sorry it came to such a sad conclusion. She worked very, 
very hard in the Congress.
    I got to know her shortly after she arrived. We 
inadvertently discovered we were both preachers' kids, and that 
formed an instantaneous bond. There is an incredible bond 
between preachers' kids. We grew up with all our friends 
expecting us to be as evil as they were and all our friends' 
parents expecting us to set an example for their kids that we 
couldn't meet. She and I often shared stories on that.
    She was a great person, and when we had the speeches on the 
floor, I think Representative Lois Capps expressed it well, 
that she was a woman of elegance and grace. That is a very 
accurate description of her, and we are all certainly going to 
miss her.
    I want to extend my congratulations to you on the 
chairmanship. If you win your primary in a few weeks you will 
have a tough decision whether to stay here in this tremendous 
position or to govern the City of Philadelphia. But I wish you 
well, no matter what happens.
    Mr. Brady. I appreciate that. Thank you.
    Mr. Ehlers. I also join in welcoming our new member. I 
welcome you and congratulate you, but I may send you a sympathy 
card as well in a day or two.
    This is an interesting committee. It is a great opportunity 
to be of great assistance to our colleagues and to the entire 
institution. It is a tremendous honor to be here, and we have 
so many opportunities to do good things for our colleagues and 
for the people. So I think you come to realize how important 
this is.
    Finally, I want to thank the Chair for postponing this 
meeting. It first of all spares me the dishonor of giving an 
inflammatory diatribe about receiving the bill at about 9 
o'clock last night and not having time to study. We scrambled 
to prepare amendments as best we could, but we very much 
appreciate not only your willingness to look closely at our 
amendments but also appreciate the extra opportunity to review 
what you have done.
    This is an extremely important issue, and I have here--this 
is just the beginning--I have a folder filled with complaints 
and opposition from local, county, city and State election 
officials objecting to the bill in its present form. I think we 
have to take all the comments seriously. I will not bother to 
put them in the record today, but I eventually will if the bill 
does not change substantially.
    I think a good model to use is the work that was done on 
the original HAVA, and I understand not everyone agrees with 
that bill. Some people think it is terrible. Some think it is 
marvelous. Nevertheless, this committee worked extremely hard. 
I don't know that there are any members remaining from that 
original committee on this committee except for myself. But 
Representative Steny Hoyer, the majority leader, is doing a 
very good job in that position, was a real mainstay on that 
whole process; and it would be worth talking to him just to 
find out.
    We spent a couple of years on this. We thought we would get 
it done very quickly, but by the time we finished negotiating 
with each other, negotiating with all the election officials 
around the country, and negotiating with the Senate, that 
consumed almost 3 years. The product was vastly improved by 
engaging in that process.
    I hope we can follow the same procedure here. It should not 
take 3 years, by any means, but I think we should check with 
all the parties involved and proceed thoroughly, carefully and 
cautiously so that we produce the fine product that we are 
capable of producing.
    With that, I congratulate you again, Mr. Chairman, and 
yield back.
    Mr. Brady. Thank you.
    I would like to recognize the lady from California, Ms. 
Lofgren.
    Ms. Lofgren. I will be very brief, Mr. Chairman. I wanted 
to just speak briefly about our late colleague, Juanita.
    Not only did I know her as a colleague on this committee, 
but I chair the California Democratic Delegation, and we were 
very proud to have Juanita as a member of our group.
    I would just like to report that at the service that we 
held we had three planeloads from Washington and a tremendous 
outpouring of love to Juanita's family and constituents and a 
very large delegation not only from the California delegation 
but others; and certainly her family was appreciative and happy 
to know, once again, the love and affection that she had from 
her colleagues in the Congress.
    We will miss her a great deal.
    I thank the chairman for postponing this. I think it just 
shows everything we already knew about you, which is you go the 
extra mile to be fair and to make sure that everything is in 
order. So we appreciate that very much, Mr. Chairman; and I 
appreciate the opportunity to report on the services we had for 
a marvelous person who we all admired and loved.
    And I yield back.
    Mr. Brady. Thank you. This meeting is adjourned until next 
Tuesday.
    Mr. Ehlers. Comment.
    Mr. Brady. Comment, sure.
    Mr. Ehlers. Just a question, actually. We have several 
election contests before us, one major one which is going to 
take considerable time, but four minor ones; and I thought we 
were going to dismiss those quickly this morning.
    Mr. Brady. We might as well just adjourn and get it all 
done on Tuesday, if that is okay.
    All right, the meeting is adjourned until Tuesday.
    Mr. Ehlers. Thank you.
    [Whereupon, at 12:00 p.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
